                        Statistical Portrayal of the
                    Criminal Investigation Function’s
                       Enforcement Activities From
                Fiscal Year 1999 Through Fiscal Year 2004

                                     May 2005

                       Reference Number: 2005-10-081




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     May 16, 2005


      MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION



      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Statistical Portrayal of the Criminal
                                   Investigation Function’s Enforcement Activities From Fiscal
                                   Year 1999 Through Fiscal Year 2004 (Audit # 200510011)

      This report presents the results of our review of statistical information that reflects
      activities of the Criminal Investigation (CI) function from Fiscal Years (FY) 1999
      through 2004. The overall objective of this review was to provide statistical information
      and trend analyses of the CI function statistics since the issuance of the Webster
      Report1 in April 1999. The audit was conducted as part of the Treasury Inspector
      General for Tax Administration’s (TIGTA) FY 2005 Annual Audit Plan.
      Beginning in FY 2002, the CI function began to turn around the downward trends from
      earlier years. Specifically, the number of subject investigations increased, more time
      was spent directly on subject investigations, and fewer days were expended to
      discontinue an investigation. Many of the CI function’s performance indicators
      continued to show improvement in FY 2003. While the number of subject investigations
      initiated and direct time spent on investigations decreased slightly, FY 2004 continued
      to show gains in the total numbers of subject investigations completed, prosecution
      referrals, pipeline investigations, indictments, convictions, and sentences.
      The CI function continues to lose special agents due to attrition faster than it can
      replace them. Increasing staffing in the enforcement areas of the Internal Revenue
      Service (IRS), in general, remains a challenge. The Government Accountability Office
      (GAO) testified stating priorities other than enforcement, including unbudgeted
      expenses, have consumed IRS budget increases and savings over the last several



      1
       Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
      as the Webster Report.
                                                      2

years.2 In addition, the FY 2005 budget contains almost a $20 million decrease in
funding for the Organized Crime and Drug Enforcement Task Force (OCDETF)
program. As a result, the CI function will reduce the amount of direct investigative time
spent on narcotics investigations and will shift some resources to tax-related
investigations. The FY 2006 budget proposes a change in the funding source for the
OCDETF program. Instead of receiving reimbursements from the Department of
Justice (DOJ), the DOJ will transfer about $56 million from its appropriation to the
Department of the Treasury’s appropriation.
In an October 2003 letter to the TIGTA, the Senate Finance Committee outlined some
concerns about the CI function’s productivity. We recently completed a review to
address one of the concerns about the CI function’s efforts to increase legal source
income tax investigations and concluded the CI function has made progress in
increasing all tax-related investigations, but the level of legal source investigations did
not materially change from FYs 1999 through 2004.3 The other concerns relating to the
length of time to prepare and present a case to the DOJ for prosecution and the small
number of investigations (as few as two) per special agent will be taken into
consideration when developing our FY 2006 Annual Audit Plan.
The CI function initiates investigations from many different sources, both from within
and outside the IRS. During FY 2004, about 58.4 percent of subject investigations
initiated came from the United States Attorney Offices (USAO) or other government
agencies. In contrast, only 30.1 percent of subject investigations initiated came from
within the IRS.4 Historically, internal IRS programs have been the primary sources of
investigations involving pure tax violations. Between FYs 1999 and 2004, almost
60 percent of legal source investigations came from within the IRS. During FY 2004,
65.8 percent of legal source investigations and 47.4 percent of tax-related investigations
came from internal IRS sources. On the other hand, almost two-thirds of the cases
initiated from the USAO and other government agencies were nontax-related
investigations.
Further, the total number of tax and tax-related investigations initiated from FYs 2002
to 2004 declined by 12.3 percent. Since actions on criminal investigations may span
more than 1 year, the more recent decline in tax and tax-related investigations initiated
may result in a decline in tax and tax-related convictions and sentences in later years.
We made no recommendations in this report. However, key CI function management
officials reviewed the report and provided written comments that were considered prior
to its issuance. Management’s complete response to the discussion draft report is
included as Appendix VI. The Office of Audit’s response to identify changes we made



2
  Internal Revenue Service: Assessment of Fiscal Year 2005 Budget Request and 2004 Filing Season Performance
(GAO-04-560T, dated March 2004).
3
  The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
4
  The remaining 11.5 percent came from the public or other sources.
                                            3

to the discussion draft report based on management’s comments is included as
Appendix VII.

Copies of this report are also being sent to the IRS managers affected by the report.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin,
Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.
   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                      From Fiscal Year 1999 Through Fiscal Year 2004




                                              Table of Contents


Background .............................................................................................. Page   1
Many Performance Indicators Showed Improvements in
Fiscal Years 2003 and 2004..................................................................... Page             3
Challenges Remain to Increase Enforcement Activities ........................... Page                            4
Congressional Interest in Criminal Investigation Activities ....................... Page                         6
Investigations Initiated From External Sources Remain a Concern ......... Page                                   9
Appendix I – Detailed Objective, Scope, and Methodology...................... Page 13
Appendix II – Major Contributors to This Report ...................................... Page 14
Appendix III – Report Distribution List ...................................................... Page 15
Appendix IV – Glossary of Terms............................................................. Page 16
Appendix V – Detailed Charts of Statistical Information ........................... Page 19
Appendix VI – Management’s Response to the Discussion
Draft Report.............................................................................................. Page 37
Appendix VII – Office of Audit Comments on Management’s
Response ................................................................................................. Page 44
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

                                   In recent years, the Internal Revenue Service (IRS) has
Background
                                   made tremendous efforts to improve customer service and
                                   make it easier for taxpayers to comply with their tax
                                   obligations. However, overall enforcement activities began
                                   to erode and surveys indicated that 17 percent of the
                                   population believed it was acceptable to cheat on their taxes.
                                   Since 2003, the IRS Commissioner has emphasized the
                                   importance and role of tax enforcement in overall tax
                                   compliance by recognizing the need to enhance levels of
                                   enforcement activity to provide a proper balance between
                                   service and enforcement.
                                   The IRS Strategic Plan for Fiscal Years (FY) 2005 to 2009
                                   provides that enforcing tax compliance is critical to
                                   maintaining the American taxpayers’ expectation that the
                                   tax system is fair and outlines several objectives to meet the
                                   goal of enhanced enforcement, including discouraging and
                                   deterring noncompliance with emphasis on corrosive
                                   activity by corporations, high-income individual taxpayers,
                                   and other contributors to the tax gap (the difference between
                                   taxes owed and paid).
                                   The Criminal Investigation (CI) function is the only law
                                   enforcement organization with the authority to investigate
                                   criminal tax violations. The vigorous enforcement of
                                   criminal statutes within the CI function’s jurisdiction is an
                                   integral component of the IRS’ efforts to enhance voluntary
                                   compliance and foster confidence in the fairness and
                                   integrity of the tax system.
                                   Over the last few decades, the Congress and the Department
                                   of the Treasury have expanded the CI function’s jurisdiction
                                   to cover offenses under money laundering and currency
                                   reporting statutes.1 Accordingly, the CI function has been
                                   involved with both legal and illegal source income
                                   investigations, including those involving organized crime
                                   and narcotics.




                                   1
                                    18 United States Code (U.S.C.) Sections (§§) 1956 and 1957 (2004)
                                   and Title 31 U.S.C., Money and Finance, sections.
                                                                                                Page 1
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               In April 1999, Judge William Webster issued a report2 of his
                               review of the CI function’s operations and concluded the CI
                               function had drifted away from its primary mission of
                               investigating criminal violations of the Internal Revenue
                               Code. Judge Webster recommended the CI function refocus
                               on its primary mission of investigating criminal violations
                               of the internal revenue laws.
                               The CI function addressed many of the Webster Report
                               concerns by creating a revised mission statement,
                               developing a compliance strategy designed to guide the
                               CI function to develop and investigate cases that foster
                               confidence in the tax system, reducing the resources placed
                               on narcotics investigations, publicizing the results of its
                               investigations, and conducting an empirical study to
                               determine the effect investigations have on voluntary
                               compliance. The CI function executives have recently
                               emphasized the importance of developing and investigating
                               those cases that have the greatest affect on tax
                               administration, whether the sources of income in those
                               investigations are derived from legal or illegal industries.
                               We initiated this review of the CI function’s enforcement
                               statistics as part of the Treasury Inspector General for Tax
                               Administration’s (TIGTA) FY 2005 Annual Audit Plan.
                               While our trend analyses covered FYs 1999 through 2004,
                               our report concentrates on providing a perspective for the
                               2 most current fiscal years.
                               Our data analyses were done in the TIGTA
                               Chicago, Illinois, office during the period February through
                               April 2005 using data accumulated by the IRS. The audit
                               was conducted in accordance with Government Auditing
                               Standards. However, we relied on information accumulated
                               by the IRS and did not verify its accuracy. Much of the data
                               in this report were updated from the prior TIGTA report on
                               criminal enforcement trends.3



                               2
                                 Review of the Internal Revenue Service’s Criminal Investigation
                               Division (Publication 3388; 4-1999), also known as the Webster Report.
                               3
                                 Statistical Portrayal of the Criminal Investigation Function’s
                               Enforcement Activities From Fiscal Year 1999 Through Fiscal
                               Year 2003 (Reference Number 2004-10-115, dated June 2004).
                                                                                             Page 2
      Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                         From Fiscal Year 1999 Through Fiscal Year 2004

                                     Detailed information on our audit objective, scope, and
                                     methodology is presented in Appendix I. Major
                                     contributors to the report are listed in Appendix II. A
                                     glossary of terms is included in Appendix IV. Detailed
                                     charts and tables referred to in the body of the report are
                                     included in Appendix V.
                                     We previously reported4 that, beginning in FY 2002, some
Many Performance Indicators
                                     of the CI function performance indicators began to show
Showed Improvements in Fiscal
                                     improvements. For example, the number of subject
Years 2003 and 2004
                                     investigations initiated increased, the percentage of direct
                                     investigative time (DIT) increased, and it took fewer days to
                                     discontinue an investigation.5
                                     Although the number of subject investigations initiated
                                     decreased slightly (2.1 percent) in FY 2004, many of the
                                     trends showed improvements from FY 2003. For example,
                                     the total number of subject investigations completed
                                     increased 16.5 percent and prosecution referrals increased
                                     19.5 percent.6 In addition, the number of indictments
                                     increased 17 percent; convictions increased 10.1 percent;
                                     and number of sentences increased .5 percent from
                                     FY 2003.7 Finally, the total number of investigations in the
                                     Department of Justice (DOJ) pipeline increased
                                     18.4 percent.8 The CI function has attributed the increased
                                     pipeline inventory to its efforts to reduce elapsed days on
                                     completed investigations. This also may account for the
                                     slight decline in subject investigations initiated.9
                                     Also, while the average number of days to refer an
                                     investigation for prosecution continued to improve from
                                     FY 2003 to FY 2004 (down 4.2 percent), the average
                                     number of days to discontinue a subject investigation
                                     increased 7.8 percent.10 In addition, the percent of time



                                     4
                                       Statistical Portrayal of the Criminal Investigation Function’s
                                     Enforcement Activities From Fiscal Year 1999 Through Fiscal
                                     Year 2003 (Reference Number 2004-10-115, dated June 2004).
                                     5
                                       Appendix V, Figures 2, 6, and 16.
                                     6
                                       Appendix V, Figure 15.
                                     7
                                       Appendix V, Figures 23 and 25.
                                     8
                                       Appendix V, Figure 22.
                                     9
                                       Appendix V, Figure 4.
                                     10
                                        Appendix V, Figure 16.
                                                                                                        Page 3
      Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                         From Fiscal Year 1999 Through Fiscal Year 2004

                                     spent conducting investigations, the DIT, decreased slightly
                                     to 56.9 percent.11
                                     Other noteworthy trends include:
                                          •   Since FY 2001, the number of subject investigations
                                              initiated has increased 19.3 percent from 3,284
                                              to 3,917.12
                                          •   The total number of investigations completed is at a
                                              6-year high, and has increased 37.1 percent from
                                              3,201 to 4,387 since FY 2002.13
                                          •   Both the total number of prosecution referrals and
                                              discontinued investigations are up over the last
                                              2 years; 42.4 percent and 26.4 percent,
                                              respectively.14
                                          •   The number of investigations in the DOJ pipeline is
                                              at a 5-year high and is up 32.2 percent from
                                              FY 2002.15
                                     These indicators demonstrate that the CI function is
                                     becoming more efficient in carrying out its duties. We
                                     believe this is attributable to CI management’s and the
                                     Commissioner’s continued emphasis on improving
                                     productivity and compliance.
                                     Between FYs 1999 and 2004, special agent staffing
Challenges Remain to Increase
                                     decreased almost 2 percent from 2,849 to 2,795. However,
Enforcement Activities
                                     field office special agent staffing declined by about
                                     6.5 percent from 2,669 to 2,495 during the same period.16
                                     An analysis of the CI function’s hiring and attrition data for
                                     FYs 1999 to 2004 shows the CI function was losing special
                                     agents to attrition faster than it could replace them. Since
                                     FY 2002, budget limitations caused the CI function to limit
                                     hiring to a level at or below attrition. The CI function
                                     originally planned to hire over 500 special agents in
                                     FY 2005; it now plans to hire only about 200 special agents.


                                     11
                                        Appendix V, Figure 2.
                                     12
                                        Appendix V, Figure 25.
                                     13
                                        Appendix V, Figure 15.
                                     14
                                        Appendix V, Figure 15.
                                     15
                                        Appendix V, Figure 21.
                                     16
                                        Appendix V, Figure 1.
                                                                                            Page 4
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               Factoring anticipated attrition, the CI function estimates a
                               net increase of about 48 special agents from FY 2004.
                               While the entire IRS is faced with an increasing number of
                               employees who are eligible to retire, the issue is more
                               pronounced in the CI function because special agents are
                               generally eligible to retire 5 years earlier. According to
                               the CI function’s FY 2005 Strategy and Program Plan,
                               there were 2,828 special agents on the rolls as of May 2003.
                               Of these, 956 are eligible to retire between FYs 2003
                               and 2008.
                               Increasing staffing in the enforcement areas of the IRS, in
                               general, remains a challenge. The Government
                               Accountability Office (GAO) testified that priorities other
                               than enforcement, including unbudgeted expenses such as
                               rent increases and Congressionally mandated pay raises,
                               have consumed IRS budget increases and savings over the
                               last several years.17
                               Proposed changes in the Organized Crime Drug
                               Enforcement Task Force (OCDETF) program funding
                               may have an effect on resources
                               Another factor that affects the CI function’s ability to
                               sustain increases in enforcement activities is funding for the
                               OCDETF program. Since its inception in 1982, the
                               CI function has participated in OCDETF program
                               investigations and other narcotics-related cases. The
                               Webster Report recommended the CI function limit its
                               narcotics-related investigations to the amount that is
                               reimbursed from the DOJ for the OCDETF program. As a
                               result, the CI function reduced the DIT on narcotics-related
                               investigations to a range of about 15 to 17 percent.
                               According to the FY 2005 budget, OCDETF program
                               funding decreased by almost $20 million from the original
                               appropriated amount of $72 million. As a result, the
                               CI function field offices reduced the DIT range to
                               10 to 12 percent to correspond with the funding decrease.
                               In addition, the CI function planed to complete about


                               17
                                 Internal Revenue Service: Assessment of Fiscal Year 2005 Budget
                               Request and 2004 Filing Season Performance (GAO-04-560T, dated
                               March 2004).
                                                                                            Page 5
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

                                   11 percent fewer investigations in FY 2005, as it shifts staff
                                   from narcotics to tax-related investigations, which generally
                                   take longer to complete.
                                   The CI function advised they continually monitor narcotics
                                   related funding levels and have since reduced the DIT range
                                   to 9 to 11 percent to remain aligned with the reimbursement
                                   level. In addition, due to early FY 2005 results and to create
                                   ambitious performance goals, the CI function increased its
                                   estimate of completed investigations to 4,380, slightly
                                   below the 4,387 investigations completed in FY 2004.
                                   The FY 2006 budget proposes an overall increase of
                                   $85 million for the CI function, including a change in the
                                   funding source for the OCDETF program. Instead of
                                   receiving reimbursements from the DOJ, the DOJ will
                                   transfer about $56 million from its appropriation to the
                                   Department of the Treasury’s appropriation. Since the
                                   FY 2006 budget is currently undergoing review by the
                                   Administration and Congress, it is uncertain what the final
                                   increase, if any, of the OCDETF program funding will be
                                   provided to the Department of the Treasury. We believe the
                                   CI function will need to remain mindful that its commitment
                                   to the narcotics programs remains within the level of the
                                   funding received.
                                   In an October 2003 letter to the TIGTA, the Senate Finance
Congressional Interest in
                                   Committee (SFC) expressed concern about the CI function’s
Criminal Investigation
                                   productivity and its ability to increase the number of legal
Activities
                                   source income tax investigations. In addition, the SFC was
                                   concerned there may be as few as 2 investigations per
                                   special agent, and that it takes on average 2 years to prepare
                                   and present a case to the Department of Justice for
                                   prosecution.18
                                   Trends related to legal source income tax investigations
                                   The CI function has consistently described legal source tax
                                   cases as a top investigative priority, and we believe these
                                   cases are an important component of all tax-related


                                   18
                                     We plan to take this information into consideration in developing our
                                   FY 2006 Annual Audit Plan. Also, see page 9 of this report for
                                   additional information on the length of time to prepare a case for
                                   prosecution.
                                                                                                   Page 6
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               investigations. At the request of the SFC, we conducted an
                               audit to evaluate the CI function’s efforts to increase legal
                               source income tax investigations. We recently issued that
                               report19 and concluded the CI function has made progress in
                               increasing all tax-related investigations, but the level of
                               legal source investigations did not materially change from
                               FYs 1999 through 2004. Also, recent trends for FYs 2002
                               through 2004 are mixed for both tax-related and legal source
                               tax investigations. In the management response to this
                               report, the Chief, CI, provided a further explanation on the
                               CI function’s position regarding the legal source income
                               statistics and reliability of the data in its management
                               information system. Management’s complete response to
                               the discussion draft report is included as Appendix VI.
                               The percentage of tax-related investigations initiated
                               increased 6.6 percentage points during FYs 1999
                               through 2004.20 However, the percentage of legal source
                               investigations initiated was virtually unchanged during this
                               same period. After a significant increase in FY 2002, the
                               number of legal source investigations initiated has decreased
                               the last 2 years, and are down 11.8 percent in FY 2004.21
                               The Chief, CI, expressed concern that our conclusion might
                               imply that the sheer number of increases in legal source
                               investigations is the goal, rather than an inventory of
                               high-quality, high-impact legal source cases balanced with
                               illegal source cases. Also, the Chief, CI, stated the CI
                               function has attained 4-year highs in several quality
                               indicators (e.g., the DOJ acceptance rate, average months to
                               serve, and publicity rate) in the legal source program, which
                               illustrates progress in achieving the CI function’s strategies.
                               Investigations referred for prosecution also reflect on the
                               quality and success of the CI function’s work. The numbers
                               of tax-related and legal source tax investigations referred for
                               prosecution have been consistently increasing and were at
                               6- and 5-year highs in FY 2004, respectively. However, the


                               19
                                  The Criminal Investigation Function Has Made Progress in
                               Investigating Criminal Tax Cases; However, Challenges Remain
                               (Reference Number 2005-10-054, dated March 2005).
                               20
                                  Appendix V, Figure 5.
                               21
                                  Appendix V, Figure 6.
                                                                                              Page 7
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               percentages of each type of investigation decreased in
                               FY 2004 to FY 2002 levels.22
                               Also, while the numbers of tax-related and legal source tax
                               investigations in the pipeline are at 5- and 4-year highs,
                               respectively, the percentages of each type of investigation
                               have been about the same and declined slightly during
                               FY 2004.23
                               Although we could not conclusively determine whether the
                               CI function was conducting enough legal source income tax
                               investigations or to what extent it can or should increase the
                               number, our recent report identified several areas in which
                               the CI function can make improvements to the legal source
                               investigative program and more effectively measure the
                               program’s impact on compliance.
                               Trends related to the number of investigations per
                               special agent
                               In FY 2002, the average inventory of subject investigations
                               per special agent was 1.86. This increased to 2 in FY 2003,
                               and then decreased to 1.84 in FY 2004.24
                               Taking this number alone creates a false sense of a CI
                               function special agent’s workload. The average inventory
                               calculation includes only open subject investigations. The
                               CI function does not consider subject investigations referred
                               for prosecution as an open investigation, even though the
                               special agent could devote significant time assisting with
                               trial preparation.25 These are considered pipeline
                               investigations. In addition, special agents may also be
                               working on primary investigations and seizure
                               investigations.
                               The CI function recognized the open investigation per agent
                               calculation does not always convey the actual workload of
                               special agents when evaluating a special agent’s total

                               22
                                  Appendix V, Figures 17 and 18.
                               23
                                  Appendix V, Figures 21 and 22.
                               24
                                  Appendix V, Figure 10.
                               25
                                  Generally, subject investigations that have been recommended for
                               prosecution and the subject has not been convicted or acquitted are
                               referred to as “pipeline investigations.” The CI function reported
                               9.1 percent of its DIT was spent on pipeline investigations during
                               FY 2004.
                                                                                              Page 8
      Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                         From Fiscal Year 1999 Through Fiscal Year 2004

                                     inventory workload. As a result, the CI function refers to all
                                     open and pipeline subject investigations, primary
                                     investigations, and seizure investigations as the “total
                                     inventory.”
                                     According to the CI function, total inventory per agent
                                     decreased from 8.83 in FY 1999 to 7.4 in FY 2002 and
                                     increased to 8.16 in FY 2004.26
                                     Trends related to the time it takes to prepare and
                                     present a case to the Department of Justice for
                                     prosecution
                                     The elapsed time to recommend a case for prosecution has
                                     decreased 11.1 percent from FY 2002 to FY 2004 to
                                     367.5 days. The elapsed time to discontinue a case has
                                     decreased 6.2 percent during the same period to 460.8 days.
                                     This includes a 7.8 percent increase over FY 2003.27 The CI
                                     function officials attributed the increase in elapsed time on
                                     discontinued investigations to their effort to close old cases.
                                     The CI function initiates investigations from many different
Investigations Initiated From
                                     sources, both from within and outside the IRS. The primary
External Sources Remain a
                                     sources from within the IRS include fraud referrals from the
Concern
                                     IRS’ compliance functions and investigations developed by
                                     the CI function from the Questionable Refund Program and
                                     Return Preparer Program. The primary sources of
                                     investigations from outside of the IRS include the United
                                     States Attorney Offices (USAO) and other government
                                     agencies, both Federal and State. In addition, the CI
                                     function initiates investigations based on information
                                     received from public sources, including the media,
                                     informants, and the toll-free tax fraud hotline.
                                     During FY 2004, about 58.4 percent of subject
                                     investigations initiated came from the USAOs or other
                                     government agencies. This increased from 51.6 percent and
                                     54.8 percent in FYs 2002 and 2003, respectively.
                                     In contrast, during FY 2004, only 30.1 percent of subject
                                     investigations initiated originated from within the IRS. This
                                     is trending down from the 34.2 percent and 31.6 percent


                                     26
                                          Appendix V, Figure 10.
                                     27
                                          Appendix V, Figure 16.
                                                                                             Page 9
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               reported in FYs 2002 and 2003, respectively.28
                               Furthermore, the number of subject investigations initiated
                               from a public source has decreased 18.7 percent during the
                               last 2 fiscal years. During FY 2004 subject investigations
                               from a public source represented 11.5 percent of the total
                               investigations initiated.
                               In a prior TIGTA report,29 we determined referrals from the
                               toll-free tax fraud hotline were rarely assigned to the CI
                               function field offices for evaluation, even though these
                               referrals could reveal significant fraud allegations and thus
                               should be given consideration. The Chief, CI, believed the
                               hotline call sites provided only a limited number of
                               informant communications that met criminal prosecution
                               potential, but agreed the CI function had a shared
                               responsibility to provide instructions and guidance on
                               potential informant communications that meet criminal
                               criteria to the Wage and Investment Division, the business
                               owner of the hotline call site function.
                               Historically, internal IRS programs have been the primary
                               sources of investigations involving pure tax violations.
                               Between FYs 1999 and 2004, almost 60 percent of legal
                               source investigations came from within the IRS. During
                               FY 2004, 65.8 percent of legal source investigations and
                               47.4 percent of tax-related investigations came from internal
                               IRS sources. On the other hand, almost two-thirds of the
                               cases initiated from USAOs and other government agencies
                               were nontax-related investigations.
                               Initiating more cases from sources external to the IRS
                               concerns us. Our recently issued report recognized that the
                               tax enforcement process works most effectively if the CI
                               function and the various USAOs have the same priorities.30
                               Given the CI function competes with other agencies for
                               inclusion in the various local USAOs’ agendas, it is
                               necessary for the CI function to maintain an effective

                               28
                                  Appendix V, Figure 8.
                               29
                                  The Tax Fraud Hotline Has Not Been an Effective Source for
                               Criminal Tax Investigations (Reference Number 2003-10-210, dated
                               September 2003).
                               30
                                  The Criminal Investigation Function Has Made Progress in
                               Investigating Criminal Tax Cases; However, Challenges Remain
                               (Reference Number 2005-10-054, dated March 2005).
                                                                                          Page 10
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               working relationship with the USAOs. We believe the CI
                               function must also be judicious in deciding which
                               investigations to work with other agencies, especially in
                               those cases where the connection to tax administration is not
                               clear. In the management response to this report, the Chief,
                               CI, provided further explanation and reemphasized the CI
                               function’s commitment to working the highest impact cases
                               with the greatest deterrent effect.
                               Further, the total number of tax or tax-related investigations
                               initiated from FY 2002 to FY 2004 declined by 12.3 percent
                               from 2,468 to 2,164.31 Since actions on criminal
                               investigations may span more than 1 year, the more recent
                               decline in tax and tax-related investigations initiated may
                               result in a decline in tax and tax-related convictions and
                               sentences in later years.
                               Recent developments in the fraud referral program
                               Our recently issued report32 concluded that IRS efforts to
                               reinvigorate the fraud referral program have not been
                               effective. Although the percentage of referrals accepted
                               increased since FY 1999, the total number of referrals
                               received has decreased. Also, after a sharp decline in
                               FY 2000, the number of referrals steadily increased through
                               FY 2003, but declined slightly in FY 2004.33
                               The CI function has taken several steps to improve the fraud
                               referral process. In addition, both the CI and Compliance
                               functions appear to have made a renewed effort to increase
                               referrals. Through the first quarter of FY 2005, the CI
                               function has received 167 referrals, a 53.2 percent increase
                               over the same period in FY 2004, and accepted 67.9 percent
                               of the referrals, a 9.2 percent increase over the first quarter
                               of FY 2004.
                               The FY 2005 results are encouraging and we believe the CI
                               and Compliance functions need to maintain this emphasis as
                               fraud referrals remain a viable and important source of legal
                               source income tax investigations.

                               31
                                  Appendix V, Figure 5.
                               32
                                  The Criminal Investigation Function Has Made Progress in
                               Investigating Criminal Tax Cases; However, Challenges Remain
                               (Reference Number 2005-10-054, dated March 2005).
                               33
                                  Appendix V, Figure 9.
                                                                                         Page 11
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                               We also believe the other proposed corrective actions in our
                               recently issued report will assist the CI function in making
                               improvements in the legal source tax program and more
                               effectively monitoring the program’s performance.




                                                                                   Page 12
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the Criminal Investigation (CI) function statistics since the issuance of the Webster Report1 in
April 1999.
To accomplish our objective, we reviewed Internal Revenue Service (IRS) data publications and
CI function management information to analyze data and identify trends. We relied on
information accumulated by the IRS and the CI function in established reports and the CI
function’s management information system and did not verify its accuracy. The major issues we
focused on included:
        •    Special Agent Staffing.
        •    Investigation Initiations.
        •    Open Investigations.
        •    Pipeline Investigations.
        •    Investigation Closures.
        •    Investigations Referred for Prosecution.
        •    Subsequent Legal Actions.
        •    Compliance Strategy Programs.




1
 Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.

                                                                                                        Page 13
   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                      From Fiscal Year 1999 Through Fiscal Year 2004

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Michael J. Hillenbrand, Senior Auditor
Lynn Rudolph, Senior Auditor




                                                                                      Page 14
   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                      From Fiscal Year 1999 Through Fiscal Year 2004

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Criminal Investigation SE:CI:S:PS




                                                                                   Page 15
   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                      From Fiscal Year 1999 Through Fiscal Year 2004

                                                                                    Appendix IV


                                      Glossary of Terms

Business Performance Review – On a quarterly basis, the Criminal Investigation (CI) function
reports on its performance measures, business results, employee and customer satisfaction, and
other items of importance to the CI function.

Compliance Strategy – The CI function strategy comprised of three interdependent program
areas: Legal Source Tax Crimes, Illegal Source Financial Crimes, and Narcotics-Related
Financial Crimes.

Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.

Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.

Discontinued Investigation – A subject investigation that resulted in a determination there was
no prosecution potential.

Elapsed Days – The number of days between the initiation of a subject investigation to another
date such as the date discontinued or date referred for prosecution.

Field Special Agent – A special agent in 1 of the CI function’s 33 field offices.

Fraud Detection Center – A CI function organization responsible for identifying and detecting
refund fraud, preventing the issuance of false refunds, and providing support for the CI function
field offices.

Grand Jury Investigation – Investigation conducted through the use of a Federal grand jury to
determine if a subject should be charged with a crime. The use of the Federal grand jury to
investigate the potential crime(s) may be initiated by the CI function or by an attorney for the
Federal Government.

Illegal Source Financial Crimes – Those crimes involving illegally earned income. They
include crimes involving money laundering, 18 United States Code (U.S.C.) Sections (§§) 1956
and 1957, sections of U.S.C. Title 31, Money and Finance, and U.S.C. Title 26 violations
investigated in conjunction with other agencies.



                                                                                          Page 16
   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                      From Fiscal Year 1999 Through Fiscal Year 2004

Inventory/Agent – The number of open subject investigations divided by the number of field
special agents whose salary grade level is 13 or below and having various position descriptions
including those of coordinator and reviewer.

Legal Source Tax Crimes – Those crimes involving legal industries and occupations and
legally earned income.

Organized Crime Drug Enforcement Task Force (OCDETF) Program– Organized in 1982,
the OCDETF program is a multi-agency effort to identify, investigate, and prosecute members of
high-level drug trafficking enterprises.

Narcotics-Related Financial Crimes – Those crimes involving tax and money laundering that
are related to narcotics and drug trafficking.

Pipeline Inventory – A subject investigation that has been recommended for prosecution and
the subject has not been convicted or acquitted, or the case dismissed. It excludes investigations
where the subject became a fugitive after indictment.

Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the internal revenue laws and related financial crimes.

Questionable Refund Program - A nationwide multifunctional program designed to identify
fraudulent returns, stop the payment of fraudulent refunds, and refer identified fraudulent refund
schemes to CI function field offices.

Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice or a United States Attorney Office.

Return Preparer Program - A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The
clients may or may not have knowledge of the false claims.

Special Agent – A CI function law enforcement employee who investigates potential criminal
violations of the internal revenue laws and related financial crimes.

Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the Internal Revenue Service and having prosecution
potential.

Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982, or 984.

                                                                                            Page 17
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

Tax-Related Violation – A violation involving a Title 26 section or one of the following
Title 18 sections: § 286, § 287, or § 371 associated with a Title 26 violation or § 371 associated
with a Title 26 and a Title 31 violation.

Title 18 – U.S.C. Title 18, Crimes and Criminal Procedure. Various sections of Title 18 apply to
violations that are within the jurisdiction of the CI function. Examples include § 286,
Conspiracy to Defraud the Government with Respect to Claims; § 287, False, Fictitious, or
Fraudulent Claims; § 371, Conspiracy to Commit Offense or to Defraud United States; and
§§ 1956 and 1957, Laundering of Monetary Instruments and Engaging in Monetary Transactions
in Property Derived from Specified Unlawful Activity. The most common section investigated
under this statute is money laundering.

Title 26 – U.S.C. Title 26, Internal Revenue Code.

Title 31 – U.S.C. Title 31, Money and Finance. Several sections of Title 31 apply to violations
that are within the jurisdiction of the CI function. Examples include § 5322, Criminal Penalties
(for willful violations of Title 31 sections), and § 5324, Structuring Transactions to Evade
Reporting Requirement Prohibited.




                                                                                           Page 18
  Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                     From Fiscal Year 1999 Through Fiscal Year 2004

                                                                                                                        Appendix V


                                 Detailed Charts of Statistical Information

Figure 1 – Special Agent and Field Special Agent Staffing at the
           End of Each Fiscal Year.................................................................................Page 21

Figure 2 – Special Agent Direct Investigative Time Expended Each Fiscal Year ..........Page 21

Figure 3 – Percentage of Direct Investigative Time Spent on Legal Source and
           Tax-Related Investigations Each Fiscal Year ...............................................Page 22

Figure 4 – Number of Subject Investigations Initiated and the Number Initiated per
           Field Special Agent Each Fiscal Year.............................................................Page 22

Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year for a
           Tax-Related or Nontax-Related Violation and the Percentage
           That Is Tax-Related ........................................................................................Page 23

Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by
           Compliance Strategy Program and the Percentage That Is
           Legal Source Tax Crimes ...............................................................................Page 23

Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year by
           Principle United States Code Title..................................................................Page 24

Figure 8 – Number of Subject Investigations Initiated Each Fiscal Year by
           Source of the Allegation or Information ..........................................................Page 24

Figure 9 – Number of Fraud Referrals Received and the Percentage Accepted
           Each Fiscal Year.............................................................................................Page 25

Figure 10 – Number of Open Subject Investigations and the Total of All Investigations
            at the End of Each Fiscal Year and the Number per Nonsupervisory
            Special Agent in Field Offices ........................................................................Page 26

Figure 11 – Number of All Types of Investigations Open in Various Stages at
            the End of Each Fiscal Year...........................................................................Page 26

Figure 12 – Number of Open Subject Investigations Each Fiscal Year for
            a Tax-Related or Nontax-Related Violation and the Percentage
            That Is Tax-Related........................................................................................Page 27

Figure 13 – Number of Open Subject Investigations Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes.....Page 27

Figure 14 – Number of Open Subject Investigations at the End of Each Fiscal Year
            by Type of Investigation: Grand Jury or Nongrand Jury Investigation ..........Page 28

Figure 15 – Number of Subject Investigations Discontinued or Referred for
            Prosecution Each Fiscal Year and the Percentage Referred
            for Prosecution................................................................................................Page 29

                                                                                                                                     Page 19
  Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                     From Fiscal Year 1999 Through Fiscal Year 2004

Figure 16 – Average Elapsed Days of Subject Investigations Discontinued and
            Referred for Prosecution Each Fiscal Year....................................................Page 29

Figure 17 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year for a Tax-Related or Nontax-Related Violation
            and the Percentage That Is Tax-Related .......................................................Page 30

Figure 18 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Compliance Strategy Program and the
            Percentage That Is Legal Source Tax Crimes ...............................................Page 30

Figure 19 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Principle United States Code Title ................................Page 31

Figure 20 – Number of Subject Investigations Referred for Prosecution Each Fiscal
            Year by Type of Investigation: Grand Jury or Nongrand Jury
            Investigation....................................................................................................Page 31

Figure 21– Number of Tax-Related and Nontax-Related Subject Investigations
           in the Pipeline Each Fiscal Year and the Percentage That Is
           Tax-Related ....................................................................................................Page 32

Figure 22 – Number of Subject Investigations in the Pipeline Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...............................................................................Page 32

Figure 23 – Number of Subjects Convicted of and Sentenced for a Crime
            Each Fiscal Year.............................................................................................Page 33

Figure 24 – Number of Subjects Convicted of a Crime Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...............................................................................Page 33

Figure 25 – Number of Subject Investigations Initiated, Referred for Prosecution,
            Indicted, and Convicted Each Fiscal Year......................................................Page 34

Figure 26 – Number of Subjects Sentenced for a Crime Each Fiscal Year for a
            Tax-Related or Nontax-Related Violation and the Percentage
            That Is Tax-Related ........................................................................................Page 34

Figure 27 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...............................................................................Page 35

Figure 28 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Principle United States Code Title..................................................................Page 35

Figure 29 – Average Number of Months a Subject Is Incarcerated Each
            Fiscal Year by Compliance Strategy Program ...............................................Page 36

Figure 30 – Percentage of Investigations That Received Publicity Each
            Fiscal Year by Compliance Strategy Program ...............................................Page 36



                                                                                                                                   Page 20
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

    Figure 1: Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year.


        3,000
                                                                     2,907
                        2,849
        2,800                                         2,820                            2,805       2,795
                                       2,746
                        2,669
        2,600                                                        2,616
                                                                                       2,543
                                       2,495          2,477                                        2,495
        2,400


        2,200
                    FY 99          FY 00          FY 01          FY 02          FY 03          FY 04

                                           Special Agents       Field Special Agents

    Source: Internal Revenue Service (IRS) Data Book, Publication 55B, for special agents. The Criminal
    Investigation (CI) function’s Business Performance Review (BPR) reports for field special agent staffing.
    Figure 2: Special Agent Direct Investigative Time Expended Each Fiscal Year.


       59.0%
       58.5%                                                                           58.5%
       58.0%            58.0%
       57.5%                            57.5%
       57.0%                                                                                        56.9%
                                                                      56.7%
       56.5%
       56.0%
       55.5%
       55.0%                                           55.1%
       54.5%
       54.0%
                    FY 99          FY 00          FY 01          FY 02          FY 03          FY 04

    Source: The Criminal Investigation Management Information System (CIMIS) Report 2, Total Time by
    Criminal Investigation Program and Activity.




                                                                                                       Page 21
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 3: Percentage of Direct Investigative Time Spent on Legal Source and Tax-Related
   Investigations Each Fiscal Year.




                                                                        %




                                                                                             %




                                                                                                                %
                       %




                                      %




                                                       %
      70%




                                                                      .3




                                                                                           .7




                                                                                                              .2
                     .9




                                    .8




                                                     .9




                                                                    61




                                                                                         65




                                                                                                            66
                   59




                                  59




                                                   59
      60%          %




                                                                                                          %
                                                                                       %
                                  %




                                                                    %
                 .3




                                                                                                        .2
                                                  %




                                                                                     .4
                                .8
      50%
               43




                                                                                                      43
                                                                  .9




                                                                                   42
                                                .1
                              41




                                                                39
                                              39
      40%
      30%
      20%
      10%
       0%
                 FY 99           FY 00           FY 01            FY 02               FY 03             FY 04

                                              Legal Source       Tax-Related

   Source: The CI function’s BPR reports and analysis of the CIMIS.
   Figure 4: Number of Subject Investigations Initiated and the Number Initiated per Field Special
   Agent Each Fiscal Year.



                                                                                     1
                     2




                                                                    6




                                                                                                        7
                                                                                   00
      4500                                                                                                          3.0
                   95




                                                                  90




                                                                                                      91
                                                                                 4,
                 3,




                                                                3,




                                                                                                    3,
                                   2




      4000
                                                  4
                                 37




                                                28




                                                                                                                    2.5
                               3,




                                              3,




      3500
      3000                                                                                                          2.0
      2500
                                                                                  1.76                              1.5
      2000       1.66                                           1.67                                1.76
                                1.51           1.49
      1500                                                                                                          1.0
      1000
                                                                                                                    0.5
       500
         0                                                                                                          0.0
                 FY 99          FY 00          FY 01            FY 02             FY 03             FY 04

                             Subject Investigations Initiated           Initiated per Field Agent

   Source: IRS Data Book, Publication 55B, for investigations initiated. Treasury Inspector General for Tax
   Administration (TIGTA) analysis based on the number of field agents provided by the CI function.




                                                                                                              Page 22
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

    Figure 5: Number of Subject Investigations Initiated Each Fiscal Year for a Tax-Related or
    Nontax-Related Violation and the Percentage That Is Tax-Related.


       3000                                                                    8                  2                              100%
                                                                             46                 45
                                                                           2,                 2,                    4            90%
       2500                 3                                                                                     16
                       9 3                                                                                      2,               80%
                    ,91 2,0             6                85
                                                           4                                                            3
                   1                  78 86            1,                                                             75         70%
       2000                         1,     5                     0                8                 54
                                                                                                      9             1,
                                         1,                    43               43                1,                             60%
                                                             1,               1,
                                                                            63.2%               61.3%
       1500                                                56.5%                                                  55.2%          50%
                     48.6%              53.0%
                                                                                                                                 40%
       1000                                                                                                                      30%
        500                                                                                                                      20%
                                                                                                                                 10%
          0                                                                                                                      0%
                   FY 99             FY 00                 FY 01            FY 02              FY 03            FY 04

                                   Tax-Related                  Nontax-Related               % Tax-Related

    Source: The CI Function’s BPR reports and analysis of the CIMIS.
    Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Compliance Strategy
    Program and the Percentage That Is Legal Source Tax Crimes.

      1800                                                                                                                        100%
                                                                            4




                                                                                                                         7
                                                                                                       35
                                                                           55




                                                                                               06




                                                                                                                        53
                            5




                                                                                 5
                          49




                                                                                                        5
                                                                                48
                                                                       1,




                                                                                                5




                                                                                                                  1,
      1600
                                                                                                     1,                           90%
                   4




                                                                                             1,




                                                                                                                 0
                       1,




                                                                            1,
               37




                                                                                                               37
                                                               3
                                                            31
                                     4
              1,




                                                                                                             1,
                                                                                                                                  80%
                                   25




      1400
                                                           1,
                                1,




                                                9
                       3




                                                                                                                                  70%
                                                10
                     08




                                                         0
                                          9




                                                                                                                             0
      1200
                                                      02
                                              1,
                                        00




                                                                                                                         01
                   1,




                                                      1,




                                                                                                         0
                                                                  1
                                     1,




                                                                                                                        1,
                                                                                                                                  60%
                                                                                                       96
                                                                95




                                                                                     7




      1000
                                                                                   86




                                                                                                                                  50%
        800
                                                                                     39.8%              37.6%                     40%
                           34.8%              37.2%                                                                      35.0%
        600                                                        31.1%                                                          30%
        400                                                                                                                       20%
        200                                                                                                                       10%
          0                                                                                                                       0%
                   FY 99             FY 00                 FY 01            FY 02                   FY 03         FY 04

                     Legal Source               Illegal Sourc e             Narc otic s -Related             % Legal Sourc e


    Source: IRS Data Book, Publication 55B. The CI function’s BPR report for Fiscal Year (FY) 1999.




                                                                                                                                 Page 23
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 7: Number of Subject Investigations Initiated Each Fiscal Year by Principle United States
   Code Title. See Glossary of Terms in Appendix IV for definitions.


      2500
                      2,374
                                                                                            2,004            2,199
      2000                                                           1,911
                                     1,922                                                     1,875
                                                        1,700            1,847
                                                                                                             1,602
      1500            1,490                             1,482
                                     1,360
      1000

       500

                      88             99                 102               148                  122           116
          0
                 FY 99          FY 00            FY 01              FY 02               FY 03           FY 04

                                             Title 18         Title 26           Title 31

   Source: CIMIS Report 11, Program Summary Analysis.
   Figure 8: Number of Subject Investigations Initiated Each Fiscal Year by Source of the Allegation or
   Information. IRS sources include fraud referrals from the Compliance functions, investigations developed
   by the Fraud Detection Centers and Lead Development Centers, and currency transactions.


      3000

      2500            2,513
                                                                                               2,191          2,286
                                     2,144              2,064
      2000                                                                 2,016

      1500
                                                                           1,334               1,266          1,179
      1000            924            812                809
        500           515                                                  556                 544            452
                                     416                411
          0
                  FY 99          FY 00            FY 01             FY 02               FY 03            FY 04

               US Attorney & Other Agencies             Internal Revenue Service                Public and Other

   Source: TIGTA analysis of the CIMIS Report 11, Program Summary Analysis. The TIGTA reclassified
   some investigations from Public and Other to IRS based on our analysis of the CIMIS and the CI function
   advising that some sources in Report 11 were misclassified.




                                                                                                                 Page 24
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

    Figure 9: Number of Fraud Referrals Received and the Percentage Accepted Each Fiscal Year.


       700       605                                                                              100%
                                                                         559
                                                           526                         530
       600                                   486                                                  80%
                               436
       500
                                                                 62.9%         61.2%
       400                                                                                   58.0% 60%
                                     50.8%         53.8%
       300             45.4%
                                                                                                  40%
       200
                                                                                                  20%
       100
         0                                                                                        0%
                FY 99          FY 00         FY 01         FY 02         FY 03         FY 04

                                Fraud Referrals Received         Percent Accepted


    Source: The CI function’s BPR reports for FYs 2000 to 2004, and the TIGTA analysis of the CIMIS and
    CIMIS Report 11, Program Summary Analysis for FY 1999.




                                                                                                   Page 25
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 10: Number of Open Subject Investigations and the Total of All Investigations at the End of
   Each Fiscal Year and the Number per Nonsupervisory Special Agent in Field Offices. The total
   inventory includes open subject investigations, as well as other investigations agents may have been
   assigned concurrently with open subject investigations, such as primary investigations, subject seizure
   investigations, and subject investigations that have been referred for prosecution (pipeline).


      25000             44                                                                                          12




                                          98
                      ,0




                                                                                                          99
                                                                                         96
                    21




                                        ,5




                                                        58




                                                                        75
                                      19




                                                                                                        ,1
                                                                                       ,0
                                                      ,6
                                                                                                                    10




                                                                      ,2




                                                                                                      18
                                                                                     18
      20000




                                                    17




                                                                    17
                      8.83             8.80                                                                         8
      15000                                           8.03                            7.95              8.16
                                                                      7.40                                          6
      10000                                                           5              5
                      2              9                2                                                 6
                    88             74               70              39             61                 13
                                                                                                                    4
                  3,             3,               3,              4,             4,                 4,
        5000                                                                                                        2
                          1.63          1.68              1.66        1.86               2              1.84
           0                                                                                                        0
                   FY 99         FY 00            FY 01           FY 02          FY 03              FY 04

                  Subject Investigations                           Total Inventory
                  Average Subject Inventory per Agent              Average Total Inventory per Agent

   Source: The CI function’s analysis of the CIMIS and Nation Criminal Investigation Statistics.
   Figure 11: Number of All Types of Investigations Open in Various Stages at the End of Each Fiscal
   Year.


      24000

      20000        1,361
                                      1,361
                   3,839                                                                 1,340              1,538
                                      3,474          1,319            1,198
      16000
                                                     2,936            2,740              3,061              3,623
                   3,882
                                      3,749
      12000                                          3,702                               4,615
                                                                      4,395                                 4,136
        8000
                   11,962         11,014             9,701            8,942              9,080              8,902
        4000

           0
                   FY 99          FY 00              FY 01           FY 02             FY 03                FY 04



             Primary Investigations      Subject Investigations     Pipeline Inventory        Seizure Investigations


   Source: The CI function’s analysis of the CIMIS and Nation Criminal Investigation Statistics.



                                                                                                                    Page 26
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 12: Number of Open Subject Investigations Each Fiscal Year for a Tax-Related or
   Nontax-Related Violation and the Percentage That Is Tax-Related.


      4000                                                                                                  100%




                                                                                     8
                                                                                   45
                                                                    7
                                                                  33
                                                                                                            90%




                                                                                 3,




                                                                                                      0
      3500




                                                                                                    14
                                                                3,
                                                    9
                  5




                                   9




                                                  72
                70




                                                                                                  3,
                                 62
      3000                                                                                                  80%




                                                2,
              2,


                                                                         75.9%            74.9%       75.9%


                               2,
                                        70.1%           73.7%
                       69.7%                                                                                70%
      2500
                                                                                                            60%
      2000
                                                                                                            50%
                       7




                                                                                         7
                                       0




                                                                        8
                     17




                                                                                       15
                                     12




                                                                      05
      1500




                                                                                                       6
                   1,




                                                      3




                                                                                     1,
                                   1,                                                                       40%




                                                                                                     99
                                                                    1,
                                                    97
      1000                                                                                                  30%
        500                                                                                                 20%
          0                                                                                                 10%
                 FY99            FY00             FY01            FY02             FY03            FY04

                                Tax-Related             Nontax-Related           % Tax-Related

   Source: The CI function’s BPR reports and analysis of the CIMIS.
   Figure 13: Number of Open Subject Investigations Each Fiscal Year by Compliance Strategy
   Program and the Percentage That Is Legal Source Tax Crimes.

                                                                     2                0
      2500
                                                                   10               17                0         80%
                   8
                                                                 2,               2,                05
                 96                9                                                              2,
               1,                83                1                    5               78
                                                                                          3                     70%
      2000                     1,                68                   69              1,                 4
                                               1,      2            1,                                 54       60%
                      50.7%                          40                                              1,
      1500                             1 49.1%     1,                    47.8%                            49.6% 50%
                      5              11                 45.4%                             47.0%
                    00 9           1,
                  1,                                                                                            40%
                       90                 9
      1000                              79                9                                 2                   30%
                                                        61               59
                                                                           8              66                2
                                                                                                          54
                                                                                                                20%
        500
                                                                                                                10%
          0                                                                                                     0%
                 FY 99           FY 00            FY 01            FY 02            FY 03           FY 04

                                       Legal       Illegal        Narcotics           % Legal

   Source: The CI function’s BPR reports and analysis of the CIMIS.




                                                                                                                Page 27
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

    Figure 14: Number of Open Subject Investigations at the End of Each Fiscal Year by Type of
    Investigation: Grand Jury or Nongrand Jury Investigation.


      3500
      3000                                                                    2,863
      2500                                                     2,634                       2,566
                     2,472         2,377          2,334
      2000
                                                               1,761          1,751
      1500                                                                                 1,570
                     1,409         1,371          1,367
      1000
       500
          0
                 FY 99         FY 00         FY 01         FY 02           FY 03       FY 04

                                           Grand Jury      Nongrand Jury

   Source: CIMIS Report 11, Program Summary Analysis.




                                                                                            Page 28
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 15: Number of Subject Investigations Discontinued or Referred for Prosecution Each Fiscal
   Year and the Percentage Referred for Prosecution.

                          0                                                                                               7
      3500              12                                                                                              03
                                                                                                                              100%
                      3,                                                                                             3,       90%
      3000                                                      5                                     1
                                           43
                                             4
                                                              33                                    54
                      73.2%
                                        2,                 2,                     3              2,                           80%
                                                                                13
      2500                                69.6%             69.9%             2,                  67.5%               69.2% 70%
                                                                                66.6%
      2000                                                                                                                  60%
                                                                                                                50            50%
                 43                                                                         25               1,3
      1500
              1,1                  65                 05                 68              1,2                                  40%
                                1,0                1,0                1,0
      1000                                                                                                                    30%
                                                                                                                              20%
       500
                                                                                                                              10%
         0                                                                                                                    0%
               FY 99             FY 00              FY 01              FY 02               FY 03              FY 04

                        Discontinued         Referred for Prosecution              % Referred for Prosecution

   Source: IRS Data Book, Publication 55B.
   Figure 16: Average Elapsed Days of Subject Investigations Discontinued and Referred for
   Prosecution Each Fiscal Year.


      550
      500                                                     506
                                           483.5                                   491
      450                                                                                                                     460.8
                        420.5                                                                             427.5
                                                                                   413.2
      400
                                                                                                          383.8
                                                              362.4                                                           367.5
      350
                        307.9              315.7
      300
      250
      200
                FY 99              FY 00               FY 01                  FY 02                FY 03                FY 04

                                         Discontinued               Prosecution Recommendations

   Source: The CIMIS Report 11, Program Summary Analysis.




                                                                                                                                Page 29
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

    Figure 17: Number of Subject Investigations Referred for Prosecution Each Fiscal Year for a
    Tax-Related or Nontax-Related Violation and the Percentage That Is Tax-Related.


      2000                  61                                                                                                    100%
                         1,7                                                                                                 3
      1800                                                                                                                        90%
                                                                                                                      64 1,57
                     9                          89                                                  9                4
      1600
                   35                                                 26                          35               1,             80%
                 1,                          1,3                                                1,
      1400                                                         1,3                                     82                     70%
                                         5                     9                  9 04                  1,1
      1200                           1,
                                       04                    00                 02 1,1                                            60%
                                                           1,                 1,
                                                                                                         53.5%
      1000                                                                           48.2%                                   48.2% 50%
                          43.6%               42.9%                 43.2%
       800                                                                                                                         40%
       600                                                                                                                        30%
       400                                                                                                                        20%
       200                                                                                                                        10%
         0                                                                                                                        0%
                  FY 99               FY 00                 FY 01               FY 02               FY 03           FY 04

                                        Tax-Related                 Nontax-Related           % Tax-Related

    Source: The CI function’s BPR reports and analysis of the CIMIS.
    Figure 18: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
    Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.

       1400                                                                                                                       100%




                                                                                                                         9
                                                                                                                        28
                                 1




                                                                                                                                  90%



                                                                                                                   1,
                               16




       1200
                                                                                                        4
                             1,




                                                                                                      03

                                                                                                                                  80%
                                                                                                    1,
                    1
                   8




                                                               3
                 97
                 98




                                                              95
                                                   6




                                                                                                                              9
       1000
                                                 92




                                                                                   4




                                                                                                                    9
                                                                                                                                  70%


                                                                                                                             87
                                                                                86




                                                                                                                 86
                                                                        7




                                                                                                3
                                           9




                                                                      84




                                                                                               82
                                         79




                                                                                                                                  60%
                                        9




                                                                                                          4




        800
                                     70




                                                                                       9




                                                                                                        68
                                                                                     65
                                                                                0




                                                                                                                                  50%
                                                                             61
                                                           5
                                                         53




        600                                                                                                                       40%
                            31.3%                                                                        32.4%
        400                                    29.1%                                   28.6%                                 28.6% 30%
                                                                     22.9%                                                         20%
        200
                                                                                                                                  10%
             0                                                                                                                    0%
                   FY 99               FY 00                  FY 01            FY 02             FY 03              FY 04

                    Legal Sourc e                    Illegal Source           Narcotic s-Related                % Legal Source

   Source: IRS Data Book, Publication 55B, for FYs 2000 through 2004. The numbers of Illegal Source
   Financial Crimes and Legal Source Tax Crimes were not published for FY 1999. FY 1999 numbers were
   obtained from the CI function based on its analysis of the CIMIS.




                                                                                                                                  Page 30
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004


   Figure 19: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by Principle
   United States Code Title.


      2500

      2000           1,988                                                                         1,922
                                   1,573              1,539                             1,594
      1500
                                                                       1,289
      1000           1,068                                                                         1,002
                                   794                                                  876
                                                      728              772
       500

                     64            67                 68               72               71         113
          0
                 FY 99         FY 00           FY 01              FY 02             FY 03       FY 04

                                           Title 18         Title 26         Title 31

   Source: The CIMIS Report 11, Program Summary Analysis.
   Figure 20: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by Type of
   Investigation: Grand Jury or Nongrand Jury Investigation.


      3000

      2500           2,507                                                                         2,449
      2000                         1,990              1,955                             2,051
                                                                       1,700
      1500

      1000
                     613                                                                           588
       500                         444                                 433              490
                                                      380
          0
                 FY 99         FY 00           FY 01              FY 02             FY 03       FY 04

                                            Grand Jury            Nongrand Jury

   Source: The CIMIS Report 11, Program Summary Analysis.




                                                                                                        Page 31
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 21: Number of Tax-Related and Nontax-Related Subject Investigations in the Pipeline Each
   Fiscal Year and the Percentage That Is Tax-Related.



                   9
                 24
      2500                                                                                                   100%




                                                                                                 4
               2,




                                                                                               05
                                    7
                                                                                                             90%




                                  92




                                                                                             2,
                                                                               0
                                1,




                                                                             79
      2000                                                                                                   80%
                          0




                                                       3




                                                                                                     9
                                                                           1,
                                       7
                        59




                                                     56




                                                                                                   56
                                     54




                                                                    6
                                                    3
                                                                                                             70%
                      1,




                                                                  48
                                                   1,




                                                                                                 1,
                                   1,




                                                  37




                                                                                   1
                                                                 4
                                                                1,




                                                                                 27
                                                               25
                                                1,
      1500                                                                                                   60%




                                                                               1,
                                                             1,
                 58.6%                                                             58.5%        56.7%        50%
                                   55.5%
      1000                                         53.2%         54.2%                                       40%
                                                                                                             30%
        500                                                                                                  20%
                                                                                                             10%
          0                                                                                                  0%
                 FY99             FY00            FY01         FY02           FY03             FY04

                                Tax-Related          Nontax-Related         % Tax-Related

   Source: The CI function’s BPR reports and analysis of the CIMIS.
   Figure 22: Number of Subject Investigations in the Pipeline Each Fiscal Year by Compliance
   Strategy Program and the Percentage That Is Legal Source Tax Crimes.


      1750                                                                                                   80%
                  6
                56




                                                                                                      0
                                                                                                    47
              1,




                                   7




                                                                                                             70%



                                                                                                  1,
      1500
                                27
                                 0




                                                                                                 9
                             22




                                                                                               20
                               5
                             1,




                                                                                    70
                              1
                           14




                                                                                    8
                          10




                                                                                                             60%
                           1,




                                                                                             1,
                                                                                  07

                                                                                   1
                          3




      1250
                         1,




                                                                     3




                                                                                 1,
                         2


                        1,
                       05




                                                                   02


                                                                                1,
                     05
                    1,




                     6




                                                                                                             50%
                    9




                                                                                                       4
                                                                 1,
                   1,




                                                                7
                  91


                  91




                                                                                                     94
                                                               0




      1000
                                                              86




                                                                              3
                                                             85




                                                                            81




                                                                                                             40%
        750             40.8%           36.8%                                       35.2%            33.4%   30%
        500                                          31.2%        31.6%
                                                                                                             20%
        250                                                                                                  10%
          0                                                                                                  0%
                 FY99             FY00            FY01          FY02           FY03             FY04

                                    Legal         Illegal      Narcotics           % Legal

   Source: The CI function’s BPR reports and analysis of the CIMIS.




                                                                                                              Page 32
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 23: Number of Subjects Convicted of and Sentenced for a Crime Each Fiscal Year.

     2800
                   2,713
     2600
                  2,619          2,475
     2400
                                 2,249        2,251
     2200                                                 2,201
                                          2,238
     2000                                                                             2,008
                                                          1,926      1,824
     1800                                                                             1,777
     1600                                                            1,768
     1400
     1200
     1000
               FY 99        FY 00         FY 01        FY 02        FY 03          FY 04

                                         Convictions    Sentenced

   Source: IRS Data Book, Publication 55B.
   Figure 24: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance Strategy
   Program and the Percentage That Is Legal Source Tax Crimes.
                       4




      1200                                                                        100%
                     03
                   1,




                                                                                  90%
                                               7
                                             93




      1000       6
               86




                                                                                      7
                                                                                  80%
                  3




                                                                                    83
                                                          8
                                   5
                81




                                                 6




                                                                       0
                                  6




                                                        78
                                 78




                                               76




                            8
                                                                     76
                                75




       800                70                                                      70%
                                                             6




                                                                         8




                                                                                         3
                                                                                  60%
                                                                             5
                                                           61




                                       8                               57



                                                                                       59
                                                                           58

                                     54           2
       600                                      52         479                    50%
                                                                                  40%
       400          31.9%      31.5%
                                                     27.1%       26.3%      28.8% 30%
                                          24.3%
       200                                                                        20%
                                                                                  10%
          0                                                                       0%
                FY 99      FY 00      FY 01      FY 02       FY 03      FY 04

                 Legal Source       Illegal Source     Narcotics-Related         % Legal Source

   Source: IRS Data Books, Publication 55B, for FYs 2000 through 2004. The numbers of Illegal Source
   Financial Crimes and Legal Source Tax Crimes were not published for FY 1999. FY 1999 numbers were
   obtained from the CI function based on its analysis of the CIMIS.




                                                                                                  Page 33
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 25: Number of Subject Investigations Initiated, Referred for Prosecution, Indicted, and
   Convicted Each Fiscal Year. Since actions on a specific case may cross fiscal years, the data shown in
   investigations initiated may not always represent the same universe of cases shown in other actions within
   the same fiscal year.


      4100
                        3,952                                                                  4,001          3,917
                                                                                3,906
      3800
      3500
                                           3,372              3,284
      3200              3,120
                        2,952                                                                                 3,037
      2900
                        2,713
      2600                               2,469           2,335                                 2,541          2,489
      2300                      2,434                       2,292             2,133
                                         2,249           2,251                   1,926         2,128
      2000                                                                                                    2,008
                                                                                1,924          1,824
      1700
                   FY 99            FY 00                FY 01           FY 02            FY 03            FY 04

              Investigations Initiated           Referred for Prosecution            Indictments       Convictions

   Source: IRS Data Book, Publication 55B.
   Figure 26: Number of Subjects Sentenced for a Crime Each Fiscal Year for a Tax-Related or
   Nontax-Related Violation and the Percentage That Is Tax-Related.


       1600                                                                                                  100%
                        2




                                                          2
                                        1
                      45




                                                        33
                                      34




                                                                                                             90%
                    1,




                                                      1,
                    7




       1400
                                    1,




                                                                         8
                                    4
                  16




                                                                       17
                                  13




                                                                                                             80%
                1,




                                                                      3
                                                                     1,
                                1,




                                                                    02




       1200
                                                                                                             70%
                                                                  1,




                                                                                       3




                                                                                                       2
                                                     6




                                                                                     93




                                                                                                    92
                                                   90




                                                                                                     5
                                                                                     5




       1000
                                                                                                   85
                                                                                                             60%
                                                                                   83




        800                              45.8%                           46.5%           47.2%         48.1% 50%
                        44.6%
        600                                               40.5%                                              40%
                                                                                                             30%
        400
                                                                                                             20%
        200                                                                                                  10%
          0                                                                                                  0%
                  FY 99           FY 00             FY 01             FY 02         FY 03          FY 04

                                Tax-Related              Nontax-Related            % Tax-Related

   Source: CI function enforcement statistics derived from the IRS Internet web site.




                                                                                                                   Page 34
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 27: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance Strategy
   Program and the Percentage That Is Legal Source Tax Crimes.

      1000                                                                                                                  100%



                        8
                      92
               0




                                                                               8
              89




                                                                            88
                                                        9
                                                       85
                                            6
                                                                                                                            90%




                                                             1
                                 9


                                          84




                                                            83
                                      0
                               81
                     1




                                     81
                   80




                                                                                                                   0
        800                                                                                                                 80%




                                                                                                                75
                                                                                                 6
                                                                                   1



                                                                                               72
                                                                               72
                                                                                                                            70%




                                                                        2
                                                                       59




                                                                                                      8
                                                                                                    56
                                                    8
        600                                                                                                                 60%




                                                  54




                                                                                                                       0
                                                                                                                7

                                                                                                                    52
                                                                                                             50
                                                                                           4
                                                                                        47
                                                                                                                            50%

        400                                                                                                                 40%
                         34.0%            33.1%
                                                                                   26.9%             26.8%             28.5% 30%
                                                            24.5%
        200                                                                                                                 20%

                                                                                                                            10%

          0                                                                                                                 0%
                   FY 99            FY 00              FY 01             FY 02                FY 03             FY 04

                   Legal Sourc e            Illegal Source              Narcotic s-Related                % Legal Source

    Source: IRS Data Books, Publication 55B, for FYs 2000 through 2004. The numbers of Illegal Source
   Financial Crimes and Legal Source Tax Crimes were not published for FY 1999. FY 1999 numbers were
   obtained from the CI function based on its analysis of the CIMIS.
   Figure 28: Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle United States
   Code Title.


      1600
      1400               1,412
                                            1,342                1,324
      1200                                                                             1,236
      1000                                                                                                1,018            1,040
                         911                868
        800                                                                            769
                                                                 666
        600                                                                                               594              573
        400
                         296                265                  248
        200                                                                            196                156              164
          0
                   FY 99             FY 00               FY 01                 FY 02                 FY 03              FY 04

                                                    Title 18           Title 26              Title 31

   Source: CIMIS Report 11, Program Summary Analysis. Title 31 also includes other statutes.




                                                                                                                                Page 35
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

   Figure 29: Average Number of Months a Subject Is Incarcerated Each Fiscal Year by Compliance
   Strategy Program. Incarcerated may include prison time, home confinement, electronic monitoring, or a
   combination thereof.


      90
                                                                                 79                    81
                            74                        76                                                                     77
      80                                                                                                                                           72
      70
      60
      50
      40




                                                                                                33




                                                                                                                      32




                                                                                                                                            32
                                                                         31
                     30




                                              27

      30




                                                                                                                                       18
                                                                                                                 16
                                         15




                                                                                           15
      20
                                                                    13
                12




      10
       0
                     FY99                     FY00                       FY01                   FY02                  FY03                  FY04

                                                Legal Source                  Illegal Source        Narcotics-Related

   Source: The CI function’s analysis of the CIMIS.
   Figure 30: Percentage of Investigations That Received Publicity Each Fiscal Year by Compliance
   Strategy Program.

       100%
        90%

                                                                                                                             %




                                                                                                                                                    %
                                                                                                          %




                                                                                                                           .7




                                                                                                                                                 .1
                                                                                                                                         0%
                                                                                                       .1




                                                                                                                         77




                                                                                                                                               78
                                     %




                                                                                                                     %
        80%



                                                                                                                                          .
                                                                                                     76




                                                                                                                                       71
                                  .7




                                                                                                                  .9
                                                                                                %
                      69




                                                                                                                 67
                                                          %




                                                                                %



                                                                                            .8
                      %




        70%
                                %




                                                       .5




                                                                             .5



                                                                                           62




                                                                                                            0%
                                                                           %
                   .0




                                                     59




                                                                          64
                              .1




                                                                                                                                   %




                                                                                                                                                         %
                 58




                                                                         .6
                            58



                                                 %




                                                                                                                                .0




                                                                                                                                                      .8
                                                                                                             .
                                                                                                          57




        60%
                                                                    54




                                                                                       %
                                                                %




                                                                                                                             56




                                                                                                                                                   55
                                              .6




                                                                                      .1
                                                              .1
                                          49




                                                                                  48
                                                           49




        50%
        40%
        30%
        20%
        10%
           0%
                       FY 99                    FY 00                      FY 01                 FY 02                 FY 03                  FY 04

                                                     Legal Sourc e             Illegal Sourc e       Narcotics -Related

   Source: The CI function’s analysis of the CIMIS.




                                                                                                                                                    Page 36
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004

                                                                          Appendix VI


              Management’s Response to the Discussion Draft Report




                                                                                Page 37
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004




                                                                                Page 38
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004




                                                                                Page 39
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004




                                                                                Page 40
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004




                                                                                Page 41
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004




                                                                                Page 42
Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                   From Fiscal Year 1999 Through Fiscal Year 2004




                                                                                Page 43
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

                                                                                   Appendix VII


                Office of Audit Comments on Management’s Response
Although Criminal Investigation function management generally agreed with the contents of this
report, they provided additional and/or clarifying information. We have taken this information
into consideration in revising the report and, where appropriate, have included portions of
management’s response and our related comments below to identify the revisions.
•   Cover Memo, Page 2, first full paragraph and Draft Report, page 5, last paragraph.

Management’s Response:
The proposed budget increase for FY 2006, $85.4 million, does not actually increase CI
resources by 12.5 percent. Sixty-five percent of this increase is a $55.6 million transfer (rounded
in the draft report to $56 million) from the Department of Justice. However, this transfer
represents a change in the funding source of an existing budgetary item, not additional resources.
The remaining $29.8 million includes $19 million to cover anticipated increases in costs of labor,
etc. and $10.8 million to fund 22 new positions and provide additional database research
capabilities to investigate additional fraudulent refund claims. Therefore, the resource increase
provided for CI programs by the FY 2006 budget proposal is 1.5 percent ($10.8 million).
Office of Audit Comment: Report clarified by deleting reference to percentage increase in
FY 2006 budget.

•   Cover Memo Page 2, last paragraph (continuing on page 3)

 “Further, the total number of tax and tax-related investigations initiated during FY 2004
declined by 12.3 percent. This occurred primarily because there was an 11.8 percent decline
in legal source investigations initiated, while illegal source investigations initiated remained
the same.”
Management’s Response:
Criminal Investigation’s case initiation rate trended downward in FY 2004, largely due to an
increased focus on completing open investigations and reducing cycle time.
Office of Audit Comment: Second statement removed from the transmittal (cover memo) to be
consistent with the text in the report.




                                                                                           Page 44
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

•   Draft Report Page 4, next to last paragraph

Management’s Response:

The FY 2005 Congressional Justification approved 350 new special agent (SA) hires and CI
planned attrition hiring of 68 additional SAs. However, the final funding levels only supported
216 hires. Therefore, CI currently projects a net increase of 48 SA positions for FY 2005. Even
with the slight reduction in SA levels over time, the current total inventory per SA (8.3) remains
at the highest level since FY 2001.
Office of Audit Comment: Report changed to reflect current staffing projection.

•   Draft Report Page 5, last full paragraph

Management’s Response:
Criminal Investigation continually monitors narcotics related funding levels and makes
adjustments to the narcotics program guidance to ensure resource utilization is consistent with
funding levels. As a result, CI reduced the narcotics DIT range to 9 – 11 percent in the first
quarter of FY 2005, to remain aligned with the reimbursement level.
The statement that CI “plans to complete 11 percent fewer investigations in FY 2005” is based
on initial projections of 3,895 completed investigations. Based on early FY 2005 results, and to
create ambitious performance goals for the organization, CI increased the projection by 12.5
percent to 4,380. The revised goal is slightly below actual FY 2004 completions of 4,387, which
represented a 4-year high. Criminal Investigation anticipates meeting or exceeding the current
projection, having already achieved over 50 percent of the revised FY 2005 goal.
Office of Audit Comment: Report clarified to recognize the revised narcotics DIT range and the
revised goal for completed investigations.

•   Draft Report Page 6, first full paragraph

Management’s Response:

The numbers presented on page eight of the draft report reflect CI’s average elapsed time is
actually 367.5 days, not two years.
Office of Audit Comment: Report clarified by adding information to footnote 18.




                                                                                           Page 45
    Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
                       From Fiscal Year 1999 Through Fiscal Year 2004

•   Draft Report Figure 9

Management’s Response:
The percentage of fraud referrals accepted for FY 1999 was 45.4 percent, versus the 44.3 percent
reflected in the chart.
Office of Audit Comment: Report revised to reflect correct percentage.

•   Draft Report Figure 14

Management’s Response:
The correct number of non-grand jury subject investigations open at the end of FY 2000 was
1,371, not 1,374 as depicted in the chart.
Office of Audit Comment: Report revised to reflect correct figure.




                                                                                         Page 46
